Audit of USAID/Zambia’s Global Development
Alliances
Audit Report Number 9-611-05-002-P
December 28, 2004




                    Washington, D.C.
December 28, 2004


MEMORANDUM
FOR:           USAID/Zambia Director, James F. Bednar

FROM:          IG/A/PA Director, Nathan S. Lokos /s/

SUBJECT:       Audit of USAID/Zambia’s Global Development Alliances
               (Report No. 9-611-05-002-P)

This memorandum transmits our final report on the subject audit. In finalizing our report,
we considered your comments on our draft report and have included your response in its
entirety in Appendix II.

This report includes three recommendations to: 1) report required Global Development
Alliance (GDA) information in USAID/Zambia’s Annual Report, 2) maintain
documentation to support reported GDAs, and 3) revise targets and indicators for one
GDA. In your written comments, you concurred with all three recommendations.

Regarding Recommendations No. 1 and 2, we determined that the planned actions you
identified, when properly implemented, will address our concerns. Accordingly,
management decisions have been reached on each of these recommendations. Please
provide documentation supporting final action on Recommendations No. 1 and 2 to
USAID’s Office of Management Planning and Innovation.

Regarding Recommendation No. 3, we determined that the modification to the
cooperative agreement in question did not fully address our concerns. Accordingly, a
management decision has not been reached for Recommendation No. 3. Please see page
22 for further discussion. Please provide written notice within 30 days of any additional
actions planned or taken to implement Recommendation No. 3.

I want to express my sincere appreciation for the cooperation and courtesy extended to my
staff during the audit.
(This page intentionally left blank.)




                                        2
Table of   Summary of Results.......................................................................................5
Contents
           Background ...................................................................................................5

           Audit Objectives ............................................................................................6

           Audit Findings ...............................................................................................7

                     Did USAID/Zambia consider utilizing Global
                     Development Alliances (GDAs) in planning its activities? ..............7

                     Did USAID/Zambia report its Global Development
                     Alliances accurately and completely? ...............................................8

                                GDA Information in the Annual
                                Report Was Incomplete .........................................................8

                                Documentation to Support Partner
                                Contributions Was Not Readily Available ............................11

                     Did selected USAID/Zambia’s Global Development Alliances
                     achieve their intended results? ...........................................................17

                                Indicators Needed Revising ...................................................18

           Evaluation of Management Comments..........................................................22

           Appendix I – Scope and Methodology ..........................................................25

           Appendix II – Management Comments.........................................................27




                                                                                                                             3
(This page intentionally left blank.)




                                        4
Summary of   Global Development Alliances (GDAs) are agreements between USAID and other
Results      parties—both governmental and private sector—in the development community to
             jointly define a development problem and jointly contribute to its solution. While
             working closely with development partners is certainly not new to USAID, since
             2001 the concept of public-private alliances has been emphasized as a business
             model to increase USAID’s effectiveness in delivering foreign assistance. (See
             page 6.)

             This audit, which was performed by the Office of Inspector General’s Performance
             Audits Division, is the pilot in a series of worldwide audits to be conducted by our
             Regional Inspector General offices. Its objectives were to determine whether (1)
             USAID/Zambia considered utilizing GDAs in planning its activities, (2) reported
             its GDAs accurately and completely, and (3) whether selected GDAs achieved
             their intended results. (See page 6.)

             USAID/Zambia did consider utilizing GDAs in planning its activities. Four of its
             five strategic objective teams had either implemented, were planning, or had
             actively considered GDAs, while the fifth team provided a rationale for not doing
             so. (See page 7.) However, USAID/Zambia did not always report its GDAs
             accurately and completely, and it did not maintain readily available
             documentation to support that its GDAs met the criteria to be reported as GDAs
             or to support the partner contributions reported to USAID/Washington. (See page
             8.) In addition, the one GDA funded in fiscal year 2003 and reporting results for
             that year was not achieving its intended results. (See page 17.)

             This report includes three recommendations to assist USAID/Zambia in
             strengthening the GDA information in its Annual Report, improving its
             documentation system and support for reported partner contributions, and revising
             indicators and targets for one alliance. (See pages 11, 17, and 22.) Management
             concurred with all three recommendations; management decisions have been
             reached on two of the three recommendations. See page 22 for our evaluation of
             management comments.

             Management comments are included in their entirety (without attachments) in
             Appendix II.


Background   Over the last 30 years, financial resources dedicated to assisting the developing
             world have undergone a major transition. In 1970, 70 percent of the money that
             went to the developing world from the United States came from the Federal
             Government and only 30 percent came from other sources. By 2000, when total
             U.S. resource flows to the developing world surpassed $70.5 billion, only
             20 percent of such resources came from the Federal Government, with 80 percent
             furnished by other sources. As a result, sources such as non-governmental
             organizations, universities, foundations, and corporations now play a significant
             role in financing development activities.




                                                                                               5
             In recognition of this major shift, USAID established the Global Development
             Alliance (GDA) business model in 2001. GDAs are agreements between USAID
             and other parties in the development community to jointly define a development
             problem and jointly contribute to its solution. According to USAID’s guidelines,
             GDAs require a minimum one-to-one matching of partner contributions to
             USAID resources. In addition, the partners’ contributions must include non-
             public resources equal to at least 25 percent of the USAID contribution. GDAs are
             sometimes referred to as “public-private alliances.”

             While working closely with development partners is certainly not new to USAID,
             since 2001 public-private alliances have been emphasized as a business model to
             increase USAID’s effectiveness in delivering foreign assistance. To this end,
             USAID established the GDA Secretariat in 2001. The Secretariat is a small
             temporary staff office that reports directly to the Administrator. It is tasked with
             providing training to USAID staff, performing outreach to prospective and current
             alliance partners, and facilitating the effective use of alliances in USAID
             programs.

             In fiscal year 2003, USAID reported that it had initiated or substantially expanded
             an estimated 140 alliances with USAID funding of approximately $273 million—
             leveraging an estimated $1.2 billion in partner contributions. These alliances
             covered a variety of USAID initiatives ranging from economic growth to
             humanitarian assistance. During this same period, USAID/Zambia reported
             seven1 GDAs with USAID funding of nearly $5 million and partner contributions
             amounting to nearly $10 million.


Audit        This audit was conducted as a pilot in a series of worldwide audits of Global
Objectives   Development Alliances, as part of the Office of Inspector General’s fiscal year
             2005 annual audit plan. The audit was conducted to answer the following
             questions:

             •     Did USAID/Zambia consider utilizing Global Development Alliances in
                   planning its activities?

             •     Did USAID/Zambia report its Global Development Alliances accurately and
                   completely?

             •     Did selected USAID/Zambia’s Global Development Alliances achieve their
                   intended results?



             1
                 This included the Producer Owned Trading Company GDA managed by USAID/Mozambique,
                 in which USAID/Zambia participated.




                                                                                                6
                 Appendix I contains a discussion of the audit’s scope and methodology.


Audit Findings   Did USAID/Zambia consider utilizing Global Development Alliances in
                 planning its activities?

                 USAID/Zambia considered utilizing Global Development Alliances (GDA) in
                 planning its activities. Four of its five strategic objective (SO) teams had either
                 implemented, were planning, or had actively considered GDAs, while the fifth
                 team provided a rationale for not doing so.

                 Various forms of USAID guidance encourage the use of GDAs in planning
                 activities. Both USAID’s Automated Directive System (ADS) Section 201
                 (Planning) and Tools for Alliance Builders2 state that operating units should
                 actively consider building public-private alliances directly into strategic plans,
                 selected SOs, or intermediate results. Additional GDA Secretariat guidance3
                 states that if alliance building is not incorporated into a particular sector, the
                 mission should be able to provide a rationale for its decision.

                 USAID/Zambia had five SO teams, and four of them had incorporated alliance
                 building into its work.

                        1. The private sector SO team led the Mission in developing alliances. It
                           implemented three alliances in fiscal year 2003, had four alliances in
                           various stages of funding for fiscal year 2004, and was working on two
                           potential GDAs.
                        2. The education SO team had included GDA-specific language in its
                           program description in a pending agreement with the Educational
                           Development Center.
                        3. The health SO team’s fiscal year 2004 Request for Applications requested
                           that proposals include a GDA.
                        4. The HIV/AIDS SO team was in the early negotiation stages with two
                           potential GDAs.
                        5. Although the government accountability SO team was not considering
                           GDAs in planning its activities, it had a rationale for this decision.

                 USAID/Zambia also incorporated the GDA business model into its fiscal year
                 2004-2010 strategic plan. For example, a section of the Overview was devoted to


                 2
                     The GDA Secretariat issued Tools for Alliance Builders, version four, on September 9, 2003. It
                     is cross-referenced in ADS Sections 200-202.
                 3
                     A Practical Framework: Ten Steps for Analyzing and Integrating Public-Private Alliances into
                     USAID Strategic Planning, dated January 12, 2004, was available on USAID’s intranet.




                                                                                                                      7
the Mission’s strategic alliances and stated that USAID/Zambia intends to
“...aggressively mobilize the GDA business model to leverage more resources for
the new strategy.” In another section of the strategic plan, the Mission stated that
“each SO will encourage local and international partnerships and utilize the GDA
business model to build local capacity, enhance partner knowledge...and increase
sustainability.” One team, the private sector SO, even incorporated GDAs into its
results framework and established a specific indicator related to the number of
alliances fostered.


Did USAID/Zambia report its Global Development Alliances accurately and
completely?

USAID/Zambia did not always report its GDAs accurately and completely. For
example, the Mission’s fiscal year 2004 Annual Report4 did not include all the
GDA information required by USAID’s Annual Report Guidance. The Mission
did, however, report additional GDA data directly to the Secretariat’s database, as
required. Although the USAID funding reported to the GDA Secretariat was
eventually determined to be accurate and complete, partner contributions were not
accurately reported in two of three cases. Finally, USAID/Zambia did not
maintain readily available documentation5 to support its reported partner
contributions. These issues are discussed in detail below.

GDA Information in the Annual
Report Was Incomplete

     Summary: USAID/Zambia’s 2004 Annual Report did not include 8 out of
     15 GDA-related elements required by the 2004 Annual Report Guidance.
     Mission personnel stated they were not able to provide all the required
     information because the Bureau for Policy and Program Coordination’s
     2004 Annual Report Guidance dictates that the Mission must describe its
     program within a certain number of pages. This forced Mission personnel
     to condense and remove information from the program narrative. Because
     the annual report did not have all the required data elements, it limited
     USAID’s ability to use the Mission’s Annual Report to evaluate the full
     scope and effectiveness of the Mission’s GDAs.


The Annual Report is USAID’s primary program result-reporting mechanism. It
is used to collect and analyze program and resource information for a variety of
purposes, including the Congressional Budget Justification, the Performance and
Accountability Report, and the Annual Budget Submission.


4
    USAID’s 2004 Annual Report reports performance information for fiscal year 2003.
5
    For this audit, readily available meant supporting documents were located within the Mission’s
    program, financial, or other related files during the fieldwork.



                                                                                                8
According to Mission personnel, after receiving the 2004 Annual Report
Guidance from USAID/Washington, USAID/Zambia’s Program Office directed
each SO team to prepare a data sheet and a performance narrative. The data sheet
summarized the main functional areas of assistance under each SO, and the
performance narrative described the Mission’s programs. These two documents
were used to collect information for the seven GDAs reported in
USAID/Zambia’s 2004 Annual Report.

To help ensure the accuracy of the GDA-related information to be incorporated
into the Annual Report, USAID/Zambia’s Program Office reconciled the
information it collected against comments made during a GDA workshop hosted
by USAID/Zambia that included some of the Mission’s alliance partners.
Additionally, USAID/Zambia established a review process whereby the Program
Office and Mission Director would review the performance narratives.

Despite these review mechanisms, USAID/Zambia’s 2004 Annual Report did not
include 8 out of 15 GDA-related elements required by USAID’s Annual Report
Guidance. Mission personnel stated that certain GDA-related information was
not included because they were forced to condense and remove information from
their program narratives to ensure that the final version submitted to Washington
would fit within the specified page limits. The Annual Report Guidance dictates
that the overall performance narrative must be no longer than four pages and each
SO narrative must be no more than three pages. Because all seven reported
GDAs were in the same SO, Mission personnel felt they did not have sufficient
space to report all required elements. Mission personnel stressed that including
all the required GDA elements for each GDA would consume space needed to
report the other requirements dictated by the Annual Report Guidance. The
following chart explains the eight missing elements in more detail.




                                                                               9
                 GDA Required Elements Not Included in
              USAID/Zambia’s Fiscal Year 2004 Annual Report

                                            Data Included in USAID/Zambia’s FY
 Required Element                                     2004 Annual Report
 The SO narrative should identify the     While the report does mention the major
 key partners participating in the        partners of the Warehouse Receipts GDA,
 alliances.                               it does not list the key partners for the
                                          other GDAs.
 The SO narrative should identify the     While the report does mention the success
 “value added” contributed by the         of the Milk Collection Centers, Small and
 partners.                                Medium Enterprises, and Warehouse
                                          Receipts GDAs, it does not attribute
                                          results to the partners.
 The SO narrative should identify         The report discusses the leveraging
 results being achieved by GDAs and       achieved by using GDAs, and it discusses
 their relationship to the SO.            results achieved by the Milk Collection
                                          Centers, Small and Medium Enterprises,
                                          and Warehouse Receipts GDAs.
                                          Nevertheless, it does not clearly discuss
                                          the results achieved by the other GDAs.
 The report should identify those         While the report does briefly describe the
 resources that are planned for public-   Mission’s plans for developing public-
 private alliances. The report should     private alliances, it does not state their
 explain the Mission’s plans for          effect on the Mission’s budget request.
 developing public-private alliances
 and the impact on the budget request.
 The report should explain how            The report does not explain how
 leveraged resources will be brought to   leveraged resources will be brought to the
 the alliances.                           alliances.
 The report should explain how            The report does not explain how
 effectiveness will be monitored and      effectiveness will be monitored and
 evaluated.                               evaluated.
 The report should indicate the cash      The report does not indicate the cash
 value of any in-kind contributions.      value of in-kind contributions.
 Where a public-private alliance has      The Annual Report stated that GDAs were
 contributed to the achievement of a      integrated into SO 1, and according to
 significant result reported under an     Mission personnel, the GDAs were
 SO, the Mission should report that       achieving significant results.
 information under the GDA section of     Nevertheless, the GDAs’ contribution was
 the Performance Measures Table.          not included in the Performance Measures
                                          Table.

The Annual Report is USAID’s mechanism for tracking the results and impact of
its GDAs. Although USAID has another mechanism for tracking GDA
information, that system only has a limited ability to track results. Thus, without
complete GDA information in USAID/Zambia’s Annual Report, USAID will not




                                                                                  10
have the information needed to fully evaluate the successes and challenges of
using GDAs in Zambia.

The GDA Secretariat has worked with the Bureau for Policy and Program
Coordination to establish new reporting requirements for USAID’s fiscal year 2005
Annual Report. Under the new guidance, the Mission will be required to report
seven of the eight elements that were not included in the fiscal year 2004 report.
Because the Mission must again include this information within specific space
limitations, it will presumably have similar challenges complying with the required
GDA reporting in 2005.            Accordingly, we are making the following
recommendation to ensure that future Annual Reports are complete:

           Recommendation No. 1: We recommend that USAID/Zambia
           coordinate with the Bureau for Policy and Program
           Coordination to develop a method for reporting the required
           Global Development Alliance information in accordance with
           the Annual Report Guidance.

Documentation to Support Partner
Contributions Was Not Readily Available
     Summary: Missions must maintain supporting documentation for
     significant information. USAID/Zambia did not maintain readily available
     supporting documentation for three GDAs reported to the Secretariat. For
     two of these GDAs, reported partner contributions were significantly
     understated. The Mission was unaware that the Secretariat would use the
     information in USAID’s Performance and Accountability Report and thus
     did not know what type of supporting documentation was needed. Without
     adequate supporting documentation, USAID/Washington did not have the
     required reasonable assurance that the partner contributions reported to
     Congress and the public under its GDA business model were reliable,
     accurate, and complete. Additionally, without adequate supporting
     documentation it also increased the risk that the Mission could not support
     that the reported GDAs possessed the required elements to be considered
     official GDAs.

The Standards for Internal Control in the Federal Government6 states that all
transactions and other significant events need to be clearly documented and that
the documentation needs to be readily available for examination.7 However,
despite this requirement, our tests revealed that USAID/Zambia did not maintain
sufficient readily available supporting documentation.


6
    The Standards for Internal Control in the Federal Government was issued by the Government
    Accountability Office in November 1999.
7
     For the purposes of this audit, “readily available” was defined as having supporting documents
    in the Mission’s program, financial, or other related files during the audit fieldwork.




                                                                                                11
We performed detailed testing on the following three GDAs that had funding
instruments—either a contract, grant or cooperative agreement—issued by the end
of fiscal year 2003 and which were reported to the Secretariat as GDAs:
       •   Milk Collection Centers Alliance,
       •   Small and Medium Enterprises Alliance, and
       •   Fresh Vegetables Export Alliance.

We determined that USAID/Zambia did not maintain readily available
documentation to support that:
       •   these activities possessed the three required elements to be considered a
           GDA8 or
       •   the alliance partners’ cash and in-kind leveraging contributions9 were
           accurate.

Mission personnel used estimated values to report partners’ contributions to the
GDA Secretariat. However, USAID/Zambia’s files did not include documentation
supporting all of the estimated values, explanations for how they were derived, or
why the reported amounts differed from the supporting documentation that was
available.

Without adequate documentation on file to support how the estimates were
derived, we had to ask Mission personnel and partners for additional information.
Ultimately, through extended audit procedures, we were able to determine that
USAID funding reported to the GDA Secretariat was accurate and complete, but
partner contributions were not accurately reported in two of three cases. Further
information on each alliance tested is provided below.

Milk Collection Centers Alliance – For the Milk Collection Centers Alliance,10
the Mission had documentation to support some of the reported values and to
establish that the GDA met the reporting criteria established by the GDA
Secretariat. However, readily available documentation could only support certain
partnership contributions.    As detailed below, a comparison of partner
contributions reported by the Mission to contributions identified in supporting


8
     To be reported as a GDA, an alliance must meet the following criteria: (1) it must be a public-
    private alliance in which total USAID resources committed over the life of the alliance is
    leveraged at least on a 1:1 basis; (2) beginning in fiscal year 2003, partner contributions must
    include private sector funds equal to at least 25 percent of the value of the expected USAID
    resources; (3) the activity should exhibit joint planning, joint problem definition, and shared
    risks and responsibilities.
9
 USAID does not have a contractual relationship with the alliance partners providing leverage
contributions. The partners are therefore not contractually required to contribute the amounts
promised. Contributions can and do change over the life of an alliance.
10
     Grant GDG-G-00-01-00015-00, Modification No. 1.



                                                                                                 12
documents on file at the Mission revealed significant variances—which caused us
to question the reasonableness of the estimates used by the Mission.

            Readily Available Documentation for Contributions
           Promised by Milk Collection Center Alliance Partners
                                                                 Supported by
                                                Reported       Readily Available
 Partner                                       Contribution     Documentation
 CARE International                                 $60,000             $35,000
 EBAS                                                 20,000                   0
 Japanese Grant to Dairy Alliance                   100,000             100,000
 Zambia Dairy Processors Committee                1,000,000                    0
 Land o Lakes                                         85,000            125,000
 Zambia Dairy Processors Association                150,000             180,000
 Smallholder Farmers                                  10,000                   0
 Golden Valley Agricultural Trust                     20,000                   0
                                       Total     $1,445,000            $440,000

By extending our audit procedures, we were eventually able to obtain
documentation from the implementing partner, an independent consultant, and the
alliance partners indicating that alliance partners had committed to contribute as
much as $1.5 million. Thus, we were able to obtain documentation indicating that
the Mission could support that the GDA met the required leverage criterion as
well as support the partner contributions reported to the Secretariat.




         Photograph taken September 14, 2004 by an OIG auditor of the
         manager of a GDA-supported milk collection center in Magoye,
         Zambia. The manager explained that many farmers transport their
         milk to the center using bicycles.




                                                                               13
Small and Medium Enterprises Alliance – For the Small and Medium
Enterprises Alliance,11 the Mission had documentation to support some of the
reported contributions and to prove that the GDA met some of the criteria
established by the GDA Secretariat. However, readily available documentation
could only support certain partner contributions. For example, while the Mission
reported that the European Union Private Sector Development Program (EU
PSDP) intended to provide $200,000 to the GDA, supporting documents could
only validate that the EU PSDP intended to provide $82,911 as of the end of fiscal
year 2004.

                Readily Available Documentation for Contributions
            Promised by Small and Medium Enterprises Alliance Partners
                                                                     Supported by
                                                       Reported    Readily Available
      Partner                                         Contribution  Documentation
      EU PSDP                                            $200,000           $82,911
      Freidrich Ebert Stiftung                            200,000            36,316
      Ecumenical Church Loan Fund                         150,000                  0
      Ministry of Finance, Microprojects Unit             150,000                  0
      District Business Associations                        34,000                 0
                                        Total            $734,000          $119,227

Similarly, although Mission personnel could provide memorandums of
understanding and other documentation suggesting that certain organizations were
working with USAID’s implementing partner, the program files did not contain
written documentation signed by these alliance partners stating the amounts they
intended to provide to the GDA. Nevertheless, we were eventually able to obtain
additional documentation indicating that alliance partners may have been willing
to contribute as much as $1.7 million. Therefore, we were able to obtain the
documentation necessary to indicate that the GDA met the required leverage
criterion, although the partners’ contributions reported to the Secretariat were
understated.

Fresh Vegetable Exports Alliance – For the Fresh Vegetable Exports Alliance,12
the Mission had documentation to support some of the reported values and to
establish that the GDA met some of the criteria established by the GDA
Secretariat. However, readily available documentation could only support certain
partnership contributions. As shown below, the significant variances between the
documented and reported amounts call into question the reasonableness of the
values reported by the Mission.


11
     CA 690-A-00-01-00117-00 and CA 690-A-00-03-000173-00.
12
     Contract 690-C-00-99-00251-00, Modification 3.



                                                                                   14
             Readily Available Documentation for Contributions
           Promised By Fresh Vegetable Export Alliance Partners
                                                        Supported by
                                         Reported     Readily Available
      Partner                           Contribution   Documentation
      Agriflora Annual Inputs               $520,000          $520,000
      Agriflora Fixed Investment              300,000          300,000
      Agriflora Management                    200,000                 0
      ZNFU/GRZ/NORAD Project                  400,000                 0
      JICA/Japanese Embassy                   300,000                 0
                              Total       $1,720,000          $820,000


We were eventually able to obtain documentation from the implementing partner
and alliance partners demonstrating that the alliance partners had the capability
and were committed to contributing $2.1 million. Therefore, we were able to
obtain documentation indicating that the GDA met the required leverage criterion,
although the partners’ contributions reported to the Secretariat were understated.




           Photograph taken September 21, 2004 by an OIG auditor of a
           year-round irrigation system provided by USAID funding to
           farmers near Lusaka, Zambia.

The preceding examples make evident that USAID/Zambia did not maintain
adequate, readily available documentation to support key aspects of its GDAs.
Maintaining this documentation is important because it serves to support the
credibility of information that is reported both within and outside of USAID. For
example, like other missions, USAID/Zambia reports alliance data directly to the
GDA Secretariat, which maintains a database to collect, summarize, and report
significant information regarding GDAs. The database is the primary source for
USAID’s GDA reporting in its annual Performance and Accountability Report,




                                                                               15
which receives wide distribution outside of USAID.13 Among other things, this
database contains the amount of USAID funding, names of implementing and
alliance partners, alliance partner contributions, and the implementation status of
each GDA. Missions submit this information using an Excel spreadsheet template
provided by the Secretariat.

In the Management’s Discussion and Analysis section of USAID’s fiscal year
2003 Performance and Accountability Report, USAID reported its GDA
accomplishments to Congress and the public. It reported an estimated 140
alliances with USAID funds equaling approximately $272.8 million and leveraged
alliance partner contributions equal to an estimated $1.2 billion. Since a
substantial portion of USAID’s total GDA results is generated at the mission
level, unreliable mission data could result in unreliable reported results at the
aggregate level. Inaccurate figures for the number of GDAs, the amount of
USAID funding, and the amount of partner contributions could significantly
overstate or understate what has actually been accomplished.

In the absence of accurate and verifiable supporting documentation for the
amounts reported by USAID/Zambia, USAID/Washington did not have the
required reasonable assurance that the leverage contributions provided by alliance
partners and reported to the public under its GDA business model were reliable,
accurate, and complete.

When asked, Mission personnel indicated that the GDA Secretariat had not
provided clear guidance regarding the level of documentation needed to support
the GDA database reporting process. For example, the SO Team was not aware
that USAID/Washington would use the GDA data in its annual Performance and
Accountability Report. As a result, Mission personnel were not aware of the
importance or eventual use of the data reported.

Additionally, Mission personnel stated that they used estimated values for
reporting partner contributions to USAID/Washington because it was difficult to
determine who was an official alliance member and exactly what each partner
would contribute. They believed these estimates were sufficient until the alliance
partners signed a consolidated memorandum of understanding that would provide
satisfactory support for the reported amounts. Mission personnel also stated that
maintaining support for the estimated values would require placing information in
the program files that would be quickly outdated and would eventually make the
files disorganized and unreliable.




13
     The fiscal year 2003 database is the primary source for statistical data reported in the fiscal year
     2004 Performance and Accountability Report. In the 2003 Performance and Accountability
     Report, data in the 2002 database was supplemented with information reported by the missions
     to USAID/Washington through a separate “data call” requested by the Secretariat.



                                                                                                      16
We agree that there are times of uncertainty when it is necessary to make and use
reasonable and well-informed estimates. However, in our opinion, maintaining
supporting documentation for such estimates and other information reported to
USAID/Washington is an important practice that should be followed regardless of
whether or not the Mission has been specifically directed to do so. Accordingly,
we are making the following recommendation to strengthen documentation
maintained at the Mission and provide reasonable assurance that amounts reported
to USAID/Washington are accurate and complete:

          Recommendation No. 2: We recommend that USAID/Zambia
          require documentation—at the time of reporting to
          USAID/Washington—for each of its reported Global
          Development Alliances, supporting (a) the existence of all three
          required alliance elements and (b) the accuracy of leveraged
          contributions from alliance partners and that this
          documentation be maintained and readily available for
          examination.


Did selected USAID/Zambia’s Global Development Alliances achieve their
intended results?

USAID/Zambia’s Small and Medium Enterprise Alliance (SME) did not achieve
its intended results as defined by the cooperative agreement’s proposal. However,
there was no evidence that the inability to achieve these results was caused by the
GDA mechanism itself.

Although USAID/Zambia reported seven14 GDAs in fiscal year 2003, we only
evaluated the SME Alliance. We did not select the other six GDAs for the
following reasons:

      •   For four of the reported alliances, the Mission had not issued any funding
          documents by the end of fiscal year 2003.

      •   For the Milk Collection Alliance, the agreement was not signed until
          August 2003, and funds were not obligated until the end of the fiscal year.
          Therefore, this GDA did not report any results during fiscal year 2003.

      •   The Fresh Vegetable Exports Alliance was funded by a contract
          modification that was in effect throughout fiscal year 2003 to finance an
          investment fund. The contract modification that established the GDA was
          one component to the overall contract. It did not contain performance
          indicators separate from those in the overall contract, so it was not


14
     This included the Producer Owned Trading Company GDA managed by USAID/Mozambique,
     in which USAID/Zambia participated.




                                                                                   17
           possible to identify the anticipated and actual performance of the alliance
           separate from the performance of the overall contract. However, the
           contractor did report separately that the majority of funds obligated under
           the modification had been used by the investment fund.15

The SME Alliance is discussed in detail in the following section.

Indicators Needed Revising

     Summary: The SME Alliance did not achieve its intended results as defined
     by the cooperative agreement’s proposal. It did not meet its membership and
     business development services goals because the proposal relied upon
     unrealistic assumptions. As a result, it was difficult for the Mission to manage
     the GDA toward realistically achievable results—impacting the Mission’s
     ability to accurately evaluate alliance performance, and increasing the risk that
     USAID/Zambia could not determine whether this GDA was the most effective
     use of Mission resources to achieve its planned SOs and intermediate results.

ADS 203.3 states that operating units should use performance information to
assess progress in achieving results and in making management decisions.
Moreover, ADS 200.2 states that SO teams are responsible for managing the
achievement of strategic and special objectives, which includes modifying SO
approaches when necessary. Having realistic performance targets is important to
this process because such targets allow USAID managers to accurately assess the
progress of their activities and to decide if and when a change in approach is
needed. As detailed below, the Mission’s SME Alliance did not have realistic
performance targets.

USAID/Zambia’s SME Alliance was structured to provide financial assistance
and business development services to Zambia’s small and medium businesses.
USAID funded the GDA through two cooperative agreements awarded to the
Zambia Chamber of Small and Medium Businesses Association (ZCSMBA),
which served as the implementing partner. According to information reported to
the GDA Secretariat, the Mission worked with various alliance partners, such as
the European Union Public Sector Development Program and Freidrich Ebert
Stiftung, to support this GDA.




15
     The original contract was signed in August 1999. It was a five-year contract with activities
     through fiscal year 2004.



                                                                                              18
                     Photograph taken September 14, 2004 by an OIG
                     auditor of an SME Alliance business training beneficiary
                     in Mazabuka, Zambia, who discussed GDA benefits.

We evaluated the performance of Cooperative Agreement No. 690-A-00-01-
00117-00.16 This agreement included two quantifiable indicators, described in
ZCSMBA’s proposal, which stated that it intended to (1) increase membership in
district business associations (DBAs) and (2) target DBA members to receive
business development services.

Membership Goal - The cooperative agreement’s proposal states that ZCSMBA
would increase DBA membership by 7,560. The proposal’s background section
also states that there were approximately 4,000 existing DBA members. Thus, to
achieve its targeted goal, ZCSMBA would need to increase total DBA
membership to 11,560. During fiscal year 2003, ZCSMBA reported DBA
membership of approximately 8,700, which is 2,860—or almost 25 percent—less
than the target of 11,560.

The reported membership only provides a partial picture of the ZCSMBA’s
progress toward this goal. An independent program assessment conducted by
Grant Thornton17 in 2003 noted that although reported membership increase from
early 2001 through early 2003, paid membership had ranged from approximately
1,200 to 1,800 members.18 Grant Thornton explained that some members had not
paid their membership dues because of disillusionment regarding access to


16
     USAID/Zambia signed a second cooperative agreement (CA 690-A-00-03-000173-00) with
     ZCSMBA in June 2003, but the Mission did not record an obligation against this agreement
     until February 2004. The implementing partner did not report any results for this portion of the
     GDA during fiscal year 2003. Therefore, we could not determine whether this portion of the
     GDA had achieved its intended results in fiscal year 2003.
17
     Grant Thornton is an accounting, tax, and business advisory organization.
18
     Although the proposal did not define what constitutes an official member, paid membership
     provides a more accurate manner for gauging beneficiaries’ connection to the GDA.




                                                                                                  19
business development services, such as access to markets and loans. (See page
21.)

The report also stressed that the premise on which the membership goal was
established was too optimistic and that the projected increase in members could
not be met within the original three-year period.19 ZCSMBA confirmed that the
membership goal was based on the assumption that they could register 840
members in each of Zambia’s nine provinces. However, ZCSMBA stated that it
was unlikely to do so. This challenge partly arises because Zambia’s provinces
vary in size. For example, the North-Western Province only has 583,350
individuals while the Copperbelt Province has 1,581,221.

Mission personnel stated that the membership goal was met because they believed
that the baseline figure of 4,000 members included in ZCSMBA’s proposal was
not relevant to the membership goal.20 Mission personnel also relied on a
sentence included in Grant Thornton’s independent program assessment that
stated that ZCSMBA’s membership goal had been met, but this statement was
based on an “indicative” figure that only reflected the number of individuals
registered with a DBA and not the actual number of paid members. Moreover, as
mentioned above, other statements in the report seriously undermined the validity
of using the indicative number to assess the effort to increase DBA membership.

Business Development Services Goal - The cooperative agreement’s proposal
states that ZSCMBA would target 7,560 DBA members to receive business
development services. These services included providing access to financial
support and business training classes. However, based on the quarterly reports
prepared by ZSCMBA, only 2,669 members had received business development
services as of the end of fiscal year 2003. Moreover, ZCSMBA appeared unlikely
to provide services to 7,560 members by the end of the cooperative agreement in
March 2005, as shown in the following chart.




19
     The original life of the cooperative agreement was extended from March 2004 to March 2005.
20
     After the exit conference, the Mission issued a modification to the cooperative agreement that
     revised the membership goal to 7,500.




                                                                                                20
                                          Cumulative Total Number of Members Receiving
       Chart Title: Cumulative Number of Members Receiving Business
                           Business Development Services
       Development Services. It shows that 406 individuals received services




        Number of Beneficiaries
       in FY
           8,0002001, 1,293 people had received services through FY 2002,
       2,669  people had received services through FY 2003, 3,124 people had
           7,000
           6,000
       received
           5,000 services through FY 2004 as of June 2004, and 7,560 people
       need4,to
             000receive services by March 2005.
                                  3,000
                                  2,000
                                  1,000
                                      0
                                            FY 2001   FY 2002   FY 2003    FY 2004      Target to be
                                                                          (As of June   reached by
                                                                            2004)       March 2005



The SME Alliance had difficulty providing these services for three reasons:

   •              Paid members are the DBA members most likely to request services. If
                  the paid membership is less than 2,000 individuals, it is unlikely that all of
                  these members would request, let alone receive, business development
                  services.

   •              According to the World Bank, lack of reasonably priced insurance serves
                  as a disincentive for commercial interests to engage in cross-border trade.
                  In this environment, it would be difficult for the Zambian economy to
                  support trade shows, one of the services included under this indicator.

   •              Mission personnel stated that the existing financial service market in
                  Zambia was underdeveloped, making it difficult for ZCSMBA to provide
                  DBA members access to loans. This statement was supported by a report
                  prepared by the International Fund for Agricultural Development that
                  describes how “existing institutions in Zambia do not meet the demand
                  that exists for rural financial services.” The report explains that “despite
                  the presence of a number of microfinance institutions, contract farming-
                  related credit operations and donor-supported programmes [sic], the
                  financial services sector remains small, has little capacity and depth, and
                  focuses mainly on urban/peri-urban clients.”

In response to Grant Thornton’s program assessment that mentioned the
difficulties faced by the GDA, ZCSMBA issued a new strategic plan in February
2004 that formalized its plan to facilitate capacity building within DBAs rather
than provide business development services directly to DBA members.
Nevertheless, the original goals outlined in the cooperative agreement’s proposal
were never changed.




                                                                                                       21
                As mentioned earlier, having realistic performance targets is important because
                such targets allow USAID managers to accurately assess the progress of their
                activities and to decide if and when a change in approach is needed. Because the
                SME Alliance was based on unrealistic estimates, it was more difficult for the
                Mission to manage the GDA toward realistically achievable results and to
                accurately evaluate the performance of the GDA.

                Additionally, because the SME Alliance was not achieving its intended results
                and the existing indicators did not provide Mission personnel with the best
                information to determine whether the GDA was directly contributing to the
                Mission’s SO, there was an increased risk that USAID/Zambia could not
                determine whether this GDA was the most effective use of Mission resources in
                achieving its planned SOs and intermediate results. TIPS No. 7, Preparing a
                Performance Monitoring Plan,21 states that activity-level reviews should be
                conducted by SO teams to assess whether its activities’ inputs, outputs, and
                processes are supporting achievement of SOs and intermediate results.
                Accordingly, we are making the following recommendation:

                           Recommendation No. 3: We recommend that USAID/Zambia
                           revise the Small and Medium Enterprise Alliance targets and
                           indicators to more realistic levels to ensure that performance
                           can be managed toward obtainable targets and that the inputs,
                           outputs, and processes can be assessed to determine whether
                           they are supporting the achievement of intermediate results.


Evaluation of   In their response to our draft report, USAID/Zambia concurred with our
Management      recommendations and described actions planned and taken to address our
                concerns. As a result, management decisions were reached on two of the three
Comments
                recommendations. However, a management decision has not been reached on the
                third recommendation. Additionally, USAID/Zambia proposed that the tables on
                pages 12-15 be either amended or moved to an appendix. We declined making
                this change, however, as we feel that the report adequately explains the results of
                our extended audit procedures related to the figures presented in the tables.

                To address Recommendation No. 1, USAID/Zambia plans to report alliances in
                accordance with the FY 2005 Annual Report Guidance. Accordingly, a
                management decision has been reached for this recommendation.

                To address Recommendation No. 2, USAID/Zambia plans to coordinate with the
                GDA Secretariat to verify that they have appropriate documentation for reported
                GDAs. USAID/Zambia also plans to establish procedures for periodic reporting
                by the alliance partners and, on annual basis, to verify the accuracy of partners’


                21
                     TIPS No. 7 is one in a series of papers issued by USAID providing performance monitoring and
                     evaluation guidance.



                                                                                                              22
leveraged contributions. The target completion date for these actions is May 31,
2005.    Accordingly, a management decision has been reached for this
recommendation.

To address Recommendation No. 3, USAID/Zambia modified the cooperative
agreement with the implementing partner. The modification provided for a six-
month “no-additional-cost” extension to March 31, 2005 and explained that the
targeted membership goal of 7,500 includes the 4,000 baseline membership.
However, this modification does not fully address the recommendation for the
following two reasons:

   1) While the modification lowered the membership goal, the revised goal
      does not address the significant difference between “reported”
      membership and “paid” membership. Without clearly defining the
      standard used to count membership, progress toward achieving this
      membership goal cannot be objectively measured. This issue is discussed
      in more detail on pages 19-20 of this report.

   2) The business development services goal was not modified. This goal also
      needed to be revised to account for issues that were not sufficiently
      considered when this goal was originally established. This issue is
      enumerated on pages 20-21 of this report.

Therefore, a management decision was not reached on Recommendation No. 3.

Management’s Comments are included in their entirety (without attachments) in
Appendix II.




                                                                             23
(This page intentionally left blank.)




                                        24
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General, Performance Audit Division conducted this
              audit in accordance with U.S. generally accepted government auditing standards.
              This pilot audit was the first of a series of worldwide audits to be conducted by
              the Regional Inspector General offices. This audit was designed to answer the
              following three questions: (1) Did USAID/Zambia consider utilizing Global
              Development Alliances (GDAs) in planning its activities?                 (2) Did
              USAID/Zambia report its GDAs accurately and completely? (3) Did selected
              USAID/Zambia’s GDAs achieve their intended results?

              To answer audit objective one, the scope included the Mission’s most recent
              country strategic plan—fiscal year 2004-2010—and alliances either planned or
              implemented during that time frame, as well as alliances implemented in fiscal
              year 2003. To answer audit objectives two and three, the audit universe included
              the seven Mission-managed GDAs reported to USAID/Washington for fiscal year
              2003. To answer audit objective two, we performed a detailed review of the three
              GDAs for which a contract, grant, or cooperative agreement had been issued by
              the end of fiscal year 2003. To answer audit objective three, we were only able to
              determine if one of the three GDAs funded in fiscal year 2003 had achieved its
              intended results. This was because only one of the three GDAs funded by the end
              of fiscal year 2003 reported results which could be compared against specific
              indicators. Of the remaining two, the agreement for one was obligated at the end
              of the fiscal year and therefore did not report 2003 results; the other GDA was
              funded by a contract modification and did not have performance indicators
              discrete from those in the original contract.

              In planning and performing the audit, we assessed the effectiveness of internal
              controls related to GDAs. We identified pertinent internal controls as (1)
              maintaining readily available documentation related to the required elements of a
              GDA, (2) maintaining documentation for GDA-related amounts reported to the
              GDA Secretariat, (3) maintaining documentation for GDA-related data reported
              through the Annual Reporting system, (4) GDA-related controls in the Mission’s
              fiscal year 2003 Performance Monitoring Plan, and (5) the Mission’s annual self-
              assessment of internal controls through its annual Federal Managers Financial
              Integrity Act review. Relevant criteria included Automated Directives System
              sections 200 through 203, the GDA Secretariat’s Tools for Alliance Builders,
              A Practical Framework: Ten Steps for Analyzing and Integrating Public-Private
              Alliances into USAID Strategic Planning, and the Government Accountability
              Office’s Standards for Internal Control in the Federal Government.

              In cases where Mission files did not include appropriate supporting
              documentation, we requested and relied on additional documentation provided by
              Mission personnel and GDA partners. We did not independently verify the




                                                                                             25
accuracy of alliance partner-reported contributions due to the lack of a contractual
relationship with those resource partners. There were no prior audit findings
affecting the areas reviewed in this audit.

For fiscal year 2003, USAID/Zambia reported seven22 GDAs—three funded by
the end of fiscal year 2003 and four unfunded as of the end of the fiscal year—
representing USAID funding of nearly $5 million and leveraged partner
contributions of nearly $10 million. USAID/Zambia’s GDAs represented over
5.0 percent of the total 140 alliances reported by USAID in fiscal year 2003, as
well as nearly 1.8 percent of total USAID GDA funding and nearly 0.8 percent of
total partner leveraging contributions.

This report summarizes the results of our audit work. Preliminary fieldwork for
this audit was performed in Washington, D.C. from June through August 2004.
Mission fieldwork was conducted at USAID/Zambia in Lusaka and at various
GDA project and partner locations in Zambia’s Southern and Lusaka Provinces
from September 1, 2004 to September 28, 2004.

Methodology

To answer audit objective one, we reviewed the Mission’s fiscal year 2004-2010
country strategic plan, interviewed strategic objective team leaders, and reviewed
pertinent documentation. To answer audit objective two, we reviewed the Mission’s
2003 GDA Secretariat reporting templates and Annual Report, reviewed supporting
documentation, interviewed responsible Mission officials, and reviewed
supplementary documents from alliance partners. To answer audit objective three,
we reviewed funding documents, quarterly progress reports, and an independent
consultant’s assessment. We also conducted site visits to observe alliance operations
and interviewed Mission officials, implementing partners, and GDA beneficiaries.

Additionally, we interviewed USAID officials in Washington, D.C. We reviewed
Mission-maintained program files and selected documentation maintained by
implementing partners and beneficiaries to determine compliance with USAID
guidelines. We conducted site visits to alliance partners and beneficiaries
involved in the three GDAs funded as of the end of fiscal year 2003 and observed
alliance operations. In addition, for the one GDA reporting results in fiscal year
2003, we reviewed performance reports and a Grant Thornton independent
program assessment report to determine if the activity was achieving its intended
results.

We did not determine materiality thresholds for any of the three audit objectives.




22
     See footnote number one for further information.



                                                                                  26
                                                                                                       Appendix II


Management
Comments



                                                                  U.S.A.I.D / ZAMBIA
                                                                  Memorandum
     Date:            December 17, 2004

     To:              Roosevelt Holt, Acting Director, IG/A/PA

     From:            F. Penoyar, Acting Mission Director, USAID/Zambia /s/

     Subject:         Audit of USAID/Zambia’s Global Development Alliances.

     Reference:       Audit Report No. 9-611-05-00X-P

      In response to the audit recommendations in subject audit report, the Mission has reviewed the draft
     audit report and is in agreement with the three recommendations and the following is our management
     decisions and actions taken/planned:

     Recommendation No. 1: We recommend that USAID/Zambia coordinate with the
     Bureau for Policy and Program Coordination to develop a method for reporting the
     required Global Development Alliance information in accordance with the Annual
     Report Guidance.

     Actions taken:

     The Global Development Alliance (GDA) Secretariat and Bureau for Policy and Program
     Coordination (PPC) had already been working on incorporating alliance reporting into the
     Annual Report for the last several months. As a result, the 2005 Annual Report now
     integrates public-private alliance reporting in accordance with Annual Report Guidance.

     Planned Actions:

     USAID/Zambia mission will report alliances, as needed, in accordance of the Annual Report Guidance
     for FY 2005.

     Recommendation No. 2: We recommend that USAID/Zambia establish procedures to
     require documentation at the time of reporting to USAID/Washington for each of its
     reported Global Development Alliances, supporting (a) the existence of all three
     required alliance elements and (b) the accuracy of leveraged contributions from alliance
     partners.




                                                                                                               27
 The GDA Secretariat recommends that involving the Mission Controller will add an additional
 level of complexity that could perhaps be substituted with an easier method whereby the SO
 team (could be the CTO, activity manager, or another appropriate point of contact from the SO
 team) would report alliances with the following documentation:
        • The first document that could provide good estimates would be the Memorandum of
           Understanding (MoU).
        • Then, the activity manager (or whomever has regular contact with the alliance
          partners) can provide periodic reporting on the specifics/updates of alliance
          components (i.e. required alliance elements, GDA Secretariat comment on
          leveraged amounts) as needed. Specifically, if periodic emails, documents, or memos
          between the alliance partners provide better accuracy on the original estimates, that
          documentation could serve to satisfy this Recommendation 2.
        • Finally, the Annual Report process will gather the necessary documentation every
          year, while the periodic reporting can be done on an as needed basis.

However, bearing in mind the experiences of the USAID/Zambia GDA audit, the Mission
proposes the following planned actions in order to adequately address Recommendation No. 2.

Planned Actions:

The USAID/Zambia Mission Global Development Alliance (GDA) coordinator will submit to the GDA
Secretariat a proposed list of documentation, which will include a memorandum of understanding, which
meets all of the three required alliance criteria to qualify an activity to be reported as a GDA for
approval. Once the proposed list of documentation has been approved, the Mission through the Strategic
Objective Team (SOT) in conjunction with the Mission Controller, will establish procedures for periodic
reporting by the alliance partners. Subsequently, the Mission will conduct annual accuracy verifications
of leveraged contributions from the alliance partners.

Target completion date: The Mission plans to have procedures for GDA existence and reporting
established by May 31, 2005. The Mission Controller, in conjunction with the SOT, will conduct annual
verifications of the accuracy of leveraged contributions from alliance partners.


Comment on the Tables on pages 12 and 14 of the draft audit report:

The Mission suggests that the three tables on pages 12 and 13 either be amended by adding an additional
column which will show the contributions which the auditors eventually found after meeting with the
alliance partners or move the tables to the annexes. Leaving the tables as they are currently in the report
gives an impression that the alliance partners did not contribute to the levels required of a GDA, which
is not an accurate reflection of the situation .

Recommendation No. 3: We recommend that USAID/Zambia revise the Small and
Medium Enterprise Alliance targets and indicators to more realistic levels to ensure
that performance can be managed toward obtainable targets and that the inputs, outputs,
and processes can be assessed to determine whether they are supporting the achievement
of intermediate results.

Action taken:

Trough Modification Number 5 to the Zambia Chamber of Small and Medium Business Associations
Cooperative Agreement Number 690-A-00-01-00197-00 dated September 29, 2004, copy attached, the
Mission has revised the targets of the Small and Medium Enterprise Alliance targets and indicators to
more realistic levels to ensure that performance can be managed toward obtainable targets and
that performance can be managed toward obtainable targets and that the inputs, outputs, and
processes can be assessed to determine whether they are supporting the achievement of
intermediate results.




                                                                                                              28
Therefore, the Mission requests that recommendation number 3 be closed and removed from the audit
report.

The above constitutes the management decisions with regard to Recommendation Numbers 1, 2
and 3. Therefore, in accordance with ADS 595.3 this memo constitutes the management
decisions and measures planned/taken to address the recommendations in Audit Report No.9-
611-05-00X-P.




Attachment: a/s




                                                                                                    29
